Squire Patton Boggs (US) LLP
1 E. Washington St., Suite 2700
Phoenix, Arizona 85004
O +1 602 528 4000
F +1 602 253 8129

squirepattonboggs.com

Gregory Schneider
T +1 602 528 4803
gregory.schneider@squirepb.com

January 15, 2020
VIA U.S. MAIL, ELECTRONIC FILING SYSTEM, AND E-MAIL
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Hurry, et al. v. Financial Industry Regulatory Authority, Inc., et al.,
U.S. Supreme Court Docket No. 19-643

Dear Mr. Harris:
We represent Financial Industry Regulatory Authority, Inc. and Scott
Andersen (collectively, “Respondents”) in the above-referenced case. We write
pursuant to Supreme Court Rule 30.4 to request a 29-day extension of time to file
an opposition to the petition for writ of certiorari, up to and including Friday, March
13, 2020. The petition for writ of certiorari was docketed on November 12, 2019,
and the Court requested on January 14, 2020 that Respondents file a brief in
opposition to the petition for writ of certiorari by February 13, 2020.
Good cause exists to grant the requested extension due to the paternity leave
and prepaid international vacation travel of Respondents’ two attorneys, Gregory
Davis and Gregory Schneider. Mr. Davis, who is primarily responsible for drafting
the brief in opposition to the petition for writ of certiorari, will soon be welcoming a
new child and is taking paternity leave from January 31, 2020 through February
21, 2020. Mr. Schneider is traveling to Beijing, China from January 30, 2020
through February 10, 2020. The requested extension will allow counsel for
Respondents to keep their obligations to their families, avoid forfeiting prepaid
vacations, while still preparing a brief in opposition that adequately addresses the
arguments raised in the petition for writ of certiorari.

Squire Patton Boggs (US) LLP

January 15, 2020

Petitioners’ counsel has been informed of the extension requested herein, and
they do not oppose Respondents’ request.
Respectfully,
Gregory Schneider
Gregory A. Davis
Gregory Schneider
Squire Patton Boggs (US) LLP
1 E. Washington St., Suite 2700
Phoenix, Arizona 85004

Attorneys for Respondents
cc:

Charles Harder (charder@harderllp.com)
Dilan A. Esper (desper@harderllp.com)
Harder LLP
132 S. Rodeo Dr., 4th Fl.
Beverly Hills, CA 90212

Attorneys for Petitioners

2

Squire Patton Boggs (US) LLP

January 15, 2020

CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules, Respondent Financial Industry
Regulatory Authority, Inc. (“FINRA”) states that it is a private, not-for-profit
Delaware corporation and is a self-regulatory organization registered with the
Securities and Exchange Commission as a national securities association pursuant
to the Maloney Act of 1938, 15 U.S.C. § 78o-3, et seq., amending the Securities
Exchange Act of 1934, 15 U.S.C. § 78a, et seq. FINRA has no stock or parent
corporation. No publicly held corporation owns 10% or more of any FINRA stock.

Gregory A. Davis
Gregory Schneider
Squire Patton Boggs (US) LLP
1 E. Washington St., Suite 2700
Phoenix, Arizona 85004
(602) 528-4000

Attorneys for Respondents

3

